Supreme Court Litigation Clinic

December 8, 2020

Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

Via FedEx
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

United States v. Gary, No. 20-444

Dear Mr. Harris,
Enclosed for filing in the above referenced matter, please find:
An original plus ten (10) copies of respondent’s Motion to Proceed In
Forma Pauperis. This motion is filed pursuant to Rule 39.1, and is
accompanied by a Certificate of Service;
An original plus ten (10) copies of respondent’s Brief in Opposition,
prepared pursuant to Rule 33.2, as well as a separate Certificate of
Service; and
Additional face-pages of the motion and brief in opposition, which I kindly
request that you file-stamp and return to my office in the self-addressed,
stamped envelope provided.
Please do not hesitate to contact me at (650) 724-7081 if you have any questions
regarding these filings. Thank you very much for your time and assistance in
this matter.
Very truly yours,

Jeffrey L. Fisher

Counsel for Respondent
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

